                              Office of Inspector General
                                    Annual Plan
Corporation for Public Broadcasting                                                          Fiscal Year 2014



         We are pleased to present the fiscal year (FY) 2014 Annual Plan for the Office of Inspector General
         (OIG) of the Corporation for Public Broadcasting (CPB). In this plan, we identify the projects we
         will undertake in FY 2014 and the measures we will apply to assess our performance. This plan
         aligns with our strategic goals of 1) providing timely and quality products, 2) promoting effective
         relationships, and 3) promoting excellence in OIG. Our planned work also supports CPB’s priorities
         of transparency and integrity.


         We made our planning decisions based on our risk assessment and discussions we held with senior
         CPB officials. We also asked for input from the CPB Board of Directors (Board) and members of
         the pertinent committees of the U.S. Congress. As the year progresses, we may change our plan to
         meet emerging issues and special requests. Our aim is to maximize our limited resources to best
         promote accountability in public media by focusing on high priority initiatives, large investments of
         CPB resources, and other identified risks.


                                                 Vision
         We support public media by promoting accountability for and recommending improvement
         in the initiatives and operations of CPB.


                                                Mission
         To promote the efficiency, effectiveness, and integrity of CPB initiatives and operations, we
         conduct independent and objective audits, investigations, and other reviews.


                                            Core Values
         Integrity – All of our work must be fair, balanced, and credible.
         Excellence – We do our best in all of our activities and follow professional standards.
         Collaboration – We seek and value input from each other and all stakeholders.
Page 2                                                                                               OIG Annual Plan




                         Goals, Strategies, and Planned Work
         Goal 1: Provide timely and quality products that benefit CPB initiatives and operations.
         Strategies to achieve Goal 1:

            • Conduct risk-based audits, evaluations, and other reviews of CPB grantees, contractors, vendors,
              and operations that provide accountability and recommend improvement.
            • Conduct investigations to improve integrity over CPB programs and operations.
            • Fully evaluate all allegations submitted to OIG and follow-up as appropriate.

         Planned work supporting Goal 1:

            Audits and Evaluations

         Our oversight universe consists of about 500 licensees who receive television (TV) and/or radio
         Community Service Grants (CSG) and another estimated 160 open grants and contracts to
         produce TV and radio programming, upgrade the digital TV interconnection system and radio
         satellite system, and implement other CPB initiatives, e.g., the U.S. Department of Education “Ready
         to Learn” program, the National Center Media Engagement initiative, the American Graduate project,
         and the American Archives project. Our universe also includes all internal operations of CPB.

         We conduct audits under the Government Auditing Standards (GAS) issued by the Government
         Accountability Office. Typically, we conduct attestation examinations of stations’ compliance with
         grant agreement terms under GAS. We also conduct financial audits of CPB production grants and
         other grants and contracts under GAS and may conduct performance audits addressing specific
         objectives related to program results and effectiveness under GAS. In addition, we provide limited
         oversight of the independent public accountants conducting CPB’s financial statement audit.

         We perform evaluations under the Council of the Inspectors General on Integrity and Efficiency
         (CIGIE) Quality Standards for Inspection and Evaluation. Evaluations are typically limited scope
         reviews of a grantee’s performance and can be conducted in a shorter time frame than an audit.

            Planned Audits or Evaluations

         This fiscal year we plan to conduct audits or evaluations of the following program areas:

            • 2 large TV and/or radio stations;
            • 1 large digital grant;
            • 1 production grant; and
            • 1 limited scope performance audit addressing multiple (at least 6) large stations’ performance
              against grant requirements or whether CPB policy objectives are being met.
Page 3                                                                                            OIG Annual Plan



         We will also complete a carry-over audit from FY 2013 of a radio station’s production grants. We
         may also conduct limited scope evaluations of hotline complaints related to Communications Act
         compliance or other compliance matters, if warranted.

                Hotline and Other Complaints / Investigations

         OIG’s hotline is our primary mechanism to receive complaints raised by the public, CPB
         employees, and the public media community. We evaluate all complaints to determine the merits
         and whether the issue presented is one that we have authority to address. While most complaints do
         not result in formal OIG projects, complaints can lead to audits, evaluations, or other reviews of
         significant compliance issues or investigations of potential criminal activities. We conduct all
         investigations in accordance with the Quality Standards for Investigations issued by CIGIE.

         We plan to analyze cumulative information we have received via the hotline to identify trends or
         particular areas that may present risks to CPB or the public media community. Depending on the
         results of our analysis, we may undertake additional projects.

         Goal 2: Promote effective working relationships with Congress, the CPB Board,
                 management, and stakeholders and increase the visibility of OIG in the
                 public media community.

         Strategies to achieve Goal 2:

            • Keep CPB’s Board and management appropriately informed of OIG activities.
            • Promptly respond to Congressional requests for information or assistance.
            • Reach out to the public media community.

         Planned work supporting Goal 2:

         We will send monthly status reports on our pending work to CPB’s Board and management, brief
         the Board as requested, meet regularly with management to discuss issues of mutual concern, and
         solicit input to our annual plan from both the Board and management. We will send all draft reports
         to management officials and auditees, consider their comments when we write the final reports, and
         ask for their feedback on the audit process after we complete audits. We also will review and
         comment on all pertinent legislative proposals and CPB draft policies and guidance.

         We will keep Congress informed of our activities through our Semiannual Reports to Congress and
         by responding to any specific Congressional requests for information. We will evaluate all
         Congressional requests for assistance and initiate responsive research, audits, evaluations,
         investigations, or other reviews as appropriate. We will also solicit input for our annual plan from
         members of pertinent Congressional committees.
Page 4                                                                                                    OIG Annual Plan



         We will conduct outreach to the public and to the public media community via our website, social
         media, and other tools to educate them on our roles and responsibilities. We will promote our hotline
         as a tool to help improve accountability and integrity of CPB-funded activities.

         Goal 3: Promote excellence in OIG.

         Strategies to achieve Goal 3:

            • Maintain a diverse, highly skilled workforce.
            • Foster an environment of open communication, respect for ideas, and appreciation for each
              individual’s contribution.
            • Provide technology, equipment, training, and other resources necessary to our work.

         Planned activities supporting Goal 3:

         While we do not anticipate having the resources to hire additional auditors in FY 2014, we will
         support our current audit staff by providing the extensive training required by their professional
         standards and upgrading the software that we use to document our work papers and analyses. We
         will also provide laptop computers and other technology that they need to conduct work on-site at
         auditees. In addition, we will provide appropriate training to our other professional staff.

         We will conduct all of our work in accordance with applicable professional standards and update our
         internal manuals to incorporate revisions to those standards. We will also procure an independent
         annual analysis of our quality assurance activities.

         We will hold monthly staff meetings to report on significant developments, discuss issues of concern
         to the staff, and prepare for upcoming activities. Each staff member will also meet monthly with the
         Inspector General to discuss the status of pending projects.

                                                    Performance Measures

                                       Performance Measure                                          FY 2014 Goal
            1.   Completed audits, evaluations, and other written products by planned deadlines.        60%
            2.   Recommendations accepted by management.                                                80%
            3.   Evaluated and closed complaints or designated them for further action within 1         80%
                 month.
            4.   Responded to Congressional correspondence within 2 weeks.                              80%
            5.   Completed administrative activities (e.g., budget reconciliations, procurements,       80%
                 final report processing) by planned deadlines.
Page 5                                                                                             OIG Annual Plan




                                                    Authority
         Under the Inspector General Act of 1978, as amended, OIG is an independent organization within
         CPB with authority to:
             •   Conduct and supervise audits and investigations relating to CPB’s initiatives and
                 operations;
             •   Provide leadership, coordination, and recommend policies for activities designed to
                 promote economy, effectiveness, and efficiency, and to prevent and detect fraud and abuse
                 in, CPB’s initiatives and operations.
             •   Keep CPB’s Board and Congress fully and currently informed of problems and
                 deficiencies in CPB’s initiatives and operations and on the status of corrective actions.
         To facilitate our reviews, the Act provides that the OIG will have access to all pertinent
         information available to CPB. In conducting our activities, we adhere to audit standards set by the
         Government Accountability Office and professional standards adopted by CIGIE.



                                                 Contact OIG
         Anyone knowing of fraud, waste, or abuse involving CPB funds, initiatives, or operations should call,
         fax, write, e-mail OIG or file a complaint through our website. Your report may be made anonymously
         or in confidence.




                              Call:                                                 Write:
                    Inspector General Hotline                             Inspector General Hotline
                         202-879-9728 or                                             CPB
                          800-599-2170                                      401 Ninth Street, NW
                              Fax:                                       Washington, DC 20004-2129
                          202-879-9699




                                                        E-mail:
                                                  oigemail@cpb.org


                                                       Website:
                                             www.cpb.org/oig/contact.php
